No.

-im5

IN THE SUPREME COURT OF THE UNITED
STATES
October Term,
In RE: Dr. Lakshmi Arunaehalam, Petitioner
Dr. Lakshmi Arunaehalam,
Petitioner
On Petition for a Writ of Mandamus to the
United States Court of Appeals
For the Federal Circuit
Case No. 20-1493
EMERGENCY PETITION FOR
WRIT OF MANDAMUS

Dr. Lakshmi Arunaehalam
Self-Represented Petitioner
222 Stanford Avenue
Menlo Park, CA 94025
(650) 690-0995

February 3, 2021

iii

QUESTIONS PRESENTED
1. Whether Justice Barrett, as the last standing
Justice with original jurisdiction, with the same
duty and oath as the lower courts to enforce the
Supreme Law of the Land — this Court’s own stare
decisis Mandated Prohibition from repudiating
Government-issued patent grant contracts,
declared in Trustees of Dartmouth College v.
Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810), must accept and grant this
Emergency Petition for Writ of Mandamus, in the
interest of justice, failing which she has a solemn
oath duty to do judicial inquiry of the Federal
Circuit court’s and clerks’ violations of federal
criminal laws 18 U.S.C. §§ 371, 1512, 1513 and
1503, and breach of solemn oaths, where Chief
Justice Roberts recused, seven Justices in silence
thereof lost subject matter jurisdiction, and failed
in their ministerial duty to abide by their solemn
oath duty to enforce the Constitution, whereby the
courts and USPTO adversely dominated the
process to prevent Dartmouth College and Fletcher
from ever coming before this Court, leaving the
inventor with rights and no remedy, in violation of
the Separation of Powers1 and Contract Clauses of
the Constitution.

1 Congress enacted the America Invents Act (ALA) for the
Executive Branch (USPTO) to perform the function of the
Judiciary by USPTO’s unconstitutionally appointed judges
(APJs) in violation of the Separation of Powers, Contract and

I

iv

2. Where the Federal Circuit oppressively required
Petitioner to seek leave of Court to file papers,
made False Official Statements with no iota of
evidence that Petitioner is “frivolous,” “malicious,”
“vexatious” for fighting for her property rights and
Constitutional rights — yet failed to submit to the
Hearing Panel Petitioner’s timely submitted
Memorandum in Lieu of Oral Argument as per its
own Order authorizing Petitioner to file, and
arbitrarily removed it from the docket a day after
the Panel Hearing, with False Official Statements
that she did not seek leave to file and that the court
docketed it in error, defrauding the Court by
suppressing material2 evidence, and whereas it
disparately reversed only in the inventor’s case its
own Aqua Products’ reversal of Orders that failed
to consider “the entirety of the record” but gave
Defendants Microsoft and the USPTO the benefit
Appointments Clause of the Constitution— in contempt of the
stare decisis Mandated Prohibition of the Constitution —against
repudiating government-issued patent contract grants, as
declared by Chief Justice Marshall in Dartmouth College and
Fletcher —to fast-track invalidate granted patents in a corrupted
re-examination process, without considering material prima
facie intrinsic evidence — Patent Prosecution History, which is no
re-examination at all. Congress created the Federal Circuit in
1982 to invalidate granted patents, in contempt of this Court’s
Mandated Prohibition —the Supreme Law of the Land.
2 Material prima facie intrinsic evidence and expert opinions by
Stanford’s Dr. Markus Covert and Dr. Jay Tenenbaum that
Petitioner’s patent claims are not invalid nor collaterally
estopped, as per the court’s False Claims and False Official
Statements, and witness testimony of the courts’ breach of
solemn oaths.

V

of its Aqua Products’ ruling, whereby the Federal
Circuit
adversely dominated the process to
prevent Dartmouth College and Fletcher from ever
coming before this Court, whether such process
disorder constitutes abuse of process and denial of
due process, fair hearing and access to the courts
to petition the Government for redress of
grievance, and denial of equal protection of the
laws, all in violation of the 1st, 5th, 6th, 7th, 8th, and
14th Amendments of the Constitution, entitling
Petitioner to Constitutional redress; and further
constitutes evidence of violation of federal criminal
laws 18U.S.C. §§371, 1512, 1513, and 1503, and
breach of solemn oaths, “acting with an improper
purpose and to engage in conduct knowingly and
dishonestly with the specific intent to subvert.
impede, or obstruct the proceeding;” and “acting
with consciousness of wrongdoing,” warranting
mandamus by this Court to order that Petitioner’s
filing be re-docketed and submitted to the Hearing
Panel to enforce the Supreme Law of the Land
this Court’s
own stare decisis Mandated
Prohibition from repudiating Government-issued
patent grant contracts, declared in Trustees of
Dartmouth College v. Woodward (1819), Grant v.
Raymond (1832), and Fletcher v. Peck (1810) and
to restore Petitioner’s ECF filing capability,
making it downright hazardous and expensive for
73-year old disabled Petitioner during COVTD
lockdown to go to Fedex to have access to the court
upon the question of due process itself, and that

t

vi

the case be stayed until the Federal Circuit clerks
and court get out of dishonor, and further
requiring Justice Barrett to move for judicial
inquiry and investigation of the perpetually
ongoing crime in progress, which has left the
Petitioner/inventor with rights and no remedy.
3. Where “there is nothing for the courts to consider,”
save enforce the Constitution, as declared by this
Court in Trustees of Dartmouth College v.
Woodward (1819), whether Justice Barrett has a
solemn oath duty to stop the adverse domination of
process by the Federal Circuit avoiding to enforce
the Supreme Law of the Land — this Court’s own
stare decisis Mandated Prohibition from
repudiating Government-issued patent grant
contracts, declared in Trustees of Dartmouth
College v. Woodward (1819), Grant u. Raymond
(1832), and Fletcher v. Peck (1810).
4. Where clerks and judges have no avenue of escape
from the paramount authority of the Constitution
when exertion of power has overridden private
rights secured by that Constitution, whether the
subject is necessarily one for judicial inquiry
against
individuals
charged
with
the
transgression.

PREAMBLE
This case is constitutionally more significant than
Marbury v. Madison and more egregious in terms of
denial of due process by oppression and civil rights
violations than Brown v. Board of Education.
Edison invented electricity. Alexander Graham Bell
invented the telephone. Petitioner, Dr. Lakshmi
Arunachalam, invented the Internet of Things (IoT) —
Web Apps displayed on a Web browser. The United
States Patent and Trademark Office (USPTO)
granted Petitioner a dozen patents that have a
priority date of 1995, a time when two-way real-time
Web transactions from Web Apps were non-existent.
Petitioner’s inventions are the backbone of the
nation’s economy, power national security and have
enabled the nation to work remotely during COVTD.
Examples of the inventor’s IoT machines are the
millions of Web Apps in Apple’s App Store in Apple’s
iPhone, in Google Play in Android devices, Web
banking Web Apps, healthcare Web Apps, Fitbit,
Zoom, Facebook, Twitter, social networking Web
Apps, to name a few.
The 73-year old, disabled female inventor of color has
not had her day in Court in over a 100 cases.
Chief Justice Roberts recused. Seven Justices sat in
silence thereof, and lost subject matter jurisdiction for
failing in their ministerial duty to uphold their solemn
oaths of office to enforce the Supreme Law of the Land
— this Court’s own stare decisis Mandated Prohibition
from repudiating Government-issued patent grant

ii

contracts without just compensation to the inventor,
as declared by Chief Justice Marshall in Trustees of
Dartmouth College v. Woodward (1819), Grant v.
Raymond (1832), Fletcher v. Peck (1810) —the Law of
the Case. ,
The USPTO and courts made it expensive, hazardous
and burdensome for the inventor to have access to the
court, called her names without an iota of evidence,
and oppressed her to keep her silent of their failure to
enforce Dartmouth College and Fletcher, “acting with
an improper purpose and to engage in conduct
knowingly and dishonestly with the specific intent to
subvert, impede, or obstruct the proceeding:” and
“acting with consciousness of wrongdoing.” The
evidence the Federal Circuit court and clerk’s office
sought to deny has been material. The endeavor had
the natural and probable effect of interfering with the
due administration of justice, in violation of federal
criminal laws 18 U.S.C. §§ 1512, 1513, 1503, and 18
USC §371, with crime in progress, requiring this
Court to stay Federal Circuit Case 20-1493 until the
Federal Circuit clerks and judges stop being in
dishonor and dereliction of their ministerial duties to
timely docket Petitioner’s filings and stop tampering
with the public record and hand over to the Hearing
panel the evidence, material to the case, which they
have removed from the docket. Defendants and the
Government unjustly enriched themselves by trillions
of dollars by their continued, unlicensed use of Dr.
Arunachalam’s patents, and importing infringing
products from China, hurting the domestic industry.

vii

CERTIFICATE AS TO PARTIES, RULINGS,
AND RELATED CASES
Pursuant to Supreme Court Rules, Self-Represented
Petitioner Dr. Lakshmi Arunachalam makes the
following certification:
(A)

Parties.

Petitioner:

Dr. Lakshmi Arunachalam

Respondents: International Business Machines
Corporation;
SAP America, Inc.;
JPMorgan Chase & Co.;
U.S. Court of Appeals for the Federal
Circuit.
Ruling Under Review. The U.S. Court of
(B)
Appeals for the Federal Circuit’s Order dated
2/2/2021, removing from the docket on 2/2/21 ECF60
Memorandum in Lieu of Oral Argument, sent in by
Petitioner and received by the Federal Circuit in a
timely manner on 1/13/21, but docketed by the Federal
Circuit only on 1/27/21 and failure by the Federal
Circuit to give Petitioner’s Memorandum in Lieu of
Oral Argument to the ruling panel prior to the panel
going into session on February 1, 2021.
ECF60 was filed by Petitioner, per leave of the
Federal Circuit Court’s Order ECF56 given to
Petitioner to file said Memorandum in lieu of Oral
Argument, and not redundantly requiring Petitioner
to file a Motion for Leave to file any paper document

viii

as per the Court’s Order ECF55. ECF56 waived the
Court’s requirement ECF55 to file a Motion for leave
to file the Memorandum in lieu of Oral Argument. The
Federal Circuit failed to grant Petitioner/Inventor her
protected rights to the benefits of the equal protection
of the laws and freedom of speech and freedom to
petition the Government for redress of grievance in
violation of the 14th and 1st Amendments to the
Constitution; oppressed Petitioner; injured 73-year
old, disabled Petitioner’s health denying Petitioner
her fundamental right to health and emergency
medical care; and made it expensive, hazardous and
burdensome for Petitioner to have access to the court
and denied her a fair hearing and substantive and
procedural due process on the question of due process
itself, all in violation of the Constitutional provision.
See ALP VOL. 12. CONST. LAW, CH. VII, SEC. 1,
§141. With respect to Fundamental, Substantive, and
Due Process Itself.
(C)
Related Cases. This case 20-1493 (Fed. Cir.)
has not previously been before this Court.
Dated: February 3, 2021
Dr. Lakshmi Arunachalam
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995, laks22002@yahoo.com
SELF- REPRESENTED PETITIONER

ix

RULE 29.6 STATEMENT
Pursuant to this Court’s Rule 29.6, Dr. Lakshmi
Arunachalam is an individual and has no parent
company and no publicly held company owns 10% or
more of its stock.

X

TABLE OF CONTENTS
PREAMBLE; QUESTIONS PRESENTED ....

1

CERTIFICATE AS TO PARTIES, RULINGS,
AND RELATED CASES................................... Vll
RULE 29.6 STATEMENT

,ix

TABLE OF AUTHORITIES

xi

PETITION FOR WRIT OF MANDAMUS....... 1
RELIEF SOUGHT

3

ISSUE PRESENTED

3

FACTS, MEMORANDUM OF LAW,
PROCESS AND PROCEDURE.......

4

REASONS WHY THE WRIT SHOULD
ISSUE......................................................

10

CONCLUSION

17

APPENDIX TABLE OF CONTENTS

18

APPENDICES
VERIFICATION
CERTIFICATE OF SELF-REPRESENTED
PETITIONER
CERTIFICATE OF SERVICE

xi

TABLE OF AUTHORITIES
CASES:

Page

Ableman v. Booth,
62 U.S. 524 (1859)
Aqua Products Inc. v. Matal,
15-1177 (Fed. Cir.2017)
Arthrex, Inc. v. Smith & Nephew, Inc.,
2018-2140, slip op. Fed. Cir.(2019)

6

passim

6, 12

Cherrington v. Erie Ins. Property and Cas. Co.,
75 S.E. 2d. 508, 513 (W. Va, 2013).........

9

Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki
Co.,
535 U.S. 722 (2002)
6, 12
Fletcher v. Peck,
10 U.S. 87 (1810)

passim

Fourco Glass Co. v. Transmirra Products Corp.,
353 U.S. 222-226 (1957).............................. 10
Grant v. Raymond,
31 U.S. 218 (1832)

passim

Kumar v. Ovonic Battery Co., Inc. And Energy
Conversion Devices, Inc., Fed. Cir. 02-1551,
-1574, 03-1091 (2003), 351 F.3d 1364, 1368,
69. (2004).................................................................. 6, 11

xii

Ogden v. Saunders,
25 U.S. 213 (1827)
Sterling v. Constantin,
287 U.S. 397 (1932)

passim

6

Trustees of Dartmouth College v. Woodward,
17 U.S. 518 (1819)
passim
TC Heartland LLC v. Kraft Foods Group Brands
LLC,
581 U.S. 16-341 (1917), 137 S. Ct. 1514
10
U.S. v. American Bell Telephone Company,
167 U.S. 224 (1897).............................. passim
U.S. v. Burr,
25 F. Cas. 55, 161 (CCD, Va. No. 14693)....7
Virnetx Inc. v. Cisco Systems and USPTO
(intervenor)
Fed. Cir. (5/13/2020)

6, 12

STATUTES
18 U.S.C. §§371, 1512, 1513, and 1503...

.passim

America Invents Act....................................

..iii, 13

CONSTITUTIONAL AMENDMENTS
1st, 5th, 6th, 7th, 8th, 14th Amendments

passim

1

EMERGENCY PETITION FOR A WRIT OF
MANDAMUS UNDER ADVERSE DOMINATION
OF PROCESS
Petitioner Dr. Lakshmi Arunachalam, a 73-year old
disabled ethnic female of color, thought leader and
inventor of a dozen patents on the Internet of
Things (IoT) — Web Apps displayed on a Web
browser, with a priority date of 11/13/95, hereby files
this Emergency Petition for a Writ of Mandamus to
the Federal Circuit from its Orders dated 2/2/21,
1/27/21.12/18/2020 and 11/30/2020 removing from the
docket on 2/2/21 ECF60 Memorandum in Lieu of Oral
Argument, sent in by Petitioner and received by the
Federal Circuit in a timely manner on 1/13/21, but
docketed by the Federal Circuit only on 1/27/21 and
failure by the Federal Circuit to give Petitioner’s
Memorandum in Lieu of Oral Argument to the ruling
panel prior to the panel going into session on 2/1/21,
in process disorder and tampered with the public
record, violating 18 U.S.C. §§ 1512,1513,1503, and 18
USC §371.
ECF60 was filed by Petitioner, per leave of the
Federal Circuit court’s Order ECF56 to Petitioner to
file said Memorandum in lieu of Oral Argument, and
not redundantly requiring Petitioner to file a Motion
for Leave to file a paper document as per the Court’s
Order ECF55. Whereas, ECF56 waived the Federal
Circuit court’s requirement ECF55 to file a Motion for
leave to file the Memorandum in lieu of Oral
Argument. The Federal Circuit failed to grant
Petitioner/Inventor her protected rights to the
benefits of the equal protection of the laws, freedom

2

of speech and freedom to petition the Government for
redress of grievance, in violation of the 14th and 1st
Amendments to the Constitution; oppressed
Petitioner; injured 73-year old, disabled Petitioner’s
health, denying Petitioner her fundamental right to
health and emergency medical care; made it
expensive, hazardous and burdensome for Petitioner
to have access to the court; and denied her a fair
hearing and substantive and procedural due process
on the question of due process itself, all in violation of
the Constitutional provision3, See ALP VOL. 12.
CONST. LAW, CH. VII, SEC. 1, §141, whereby the
courts and USPTO adversely dominated the process
to prevent Dartmouth College4 and Fletcher from ever
coming before this Court, leaving the inventor with
rights and no remedy, in violation of the Separation of
Powers and Contract Clauses of the Constitution and
3 “ ...denies

a litigant due process entitlement to an honest.
though not learned tribunal: and if injured by the corruption or
fraud of the court is entitled to redress.” [§ 140];
“and final decisions upon the ultimate question of due process
cannot be conclusively codified to any non-judicial tribunal. Any
attempt to do this whether by direct denial of access to the courts
upon this question of due process by hindering access to the
courts or making resort to the courts upon it difficult, expensive.
hazardous, all alike violate the Constitutional provision.” [§141]
4 The Federal Circuit failed to uphold its solemn oaths of office
and enforce the stare decisis Mandated Prohibition declared by
this Court’s Chief Justice John Marshall against repudiating
Government-issued patent contract grants in Trustees of
Dartmouth College u. Woodward, 17 U.S. 518 (1819); Fletcher u.
Peck, 10 U.S. 87 (1810), Ogden v. Saunders, 25 U.S. 213 (1827);
Grant v. Raymond, 31 U.S. 218 (1832); U.S. v. American Bell
Telephone Company, 167 U.S. 224 (1897) — the Supreme Law of
the Land and Law of the Case. The Federal Circuit’s Orders are
void by operation of law.

3

18 U.S.C. §§ 1512, 1513, 1503, and 18 USC §371. The
USPTO and courts called her names without an iota
of evidence, and oppressed her to keep her silent of
their failure to enforce Dartmouth College and
Fletcher, “acting with an improper purpose and to
engage in conduct knowingly and dishonestly with the
specific intent to subvert, impede, or obstruct the
proceeding;” and “acting with consciousness of
wrongdoing.” The evidence the Federal Circuit court
and clerk’s office sought to deny has been material.
The endeavor had the natural and probable effect of
interfering with the due administration of justice.
RELIEF SOUGHT
Petitioner respectfully requests that this Court order
the U.S. Court of Appeals for the Federal Circuit to do
its ministerial duty to abide by their oaths of office to
enforce the Mandated Prohibition of the Constitution
and stop tampering with the public record and to re­
docket and send to the ruling panel Circuit Judges
Lourie, Wallach and Chen, Petitioner’s timely filed
Memorandum in Lieu of Oral Argument, and to report
to the authorities the Federal Circuit clerks’ and
court’s violation of 18 U.S.C. §§ 1512, 1513, 1503, and
18 USC §371 and breach of solemn oaths by
oppressing Petitioner and making her a victim of their
violations of federal criminal laws.
ISSUE PRESENTED
The courts and USPTO adversely dominated the
process to prevent Dartmouth College, Fletcher, et al
from ever coming before this Court to the extent of
violating federal criminal laws 18 U.S.C. §§371, 1512,
1513, 1503, and breach of solemn oaths by oppressing

4

Petitioner and violating the Constitution, leaving the
inventor with rights and no remedy.
Justice Barrett is The Sole and Last-Standing
Justice With Jurisdiction.
Justice Barrett, with the same duty and oath as the
lower courts to enforce the Supreme Law of the Land
— this Court’s own stare decisis Mandated Prohibition
from repudiating Government-issued patent grant
contracts, declared in Trustees of Dartmouth College
v. Woodward (1819), Grant v. Raymond (1832),
Fletcher v. Peck (1810), et al must grant this petition
for writ of mandamus, in the interest of justice,
whereas Chief Justice Roberts recused, and seven
Justices sat in silence thereof, and lost subject matter
jurisdiction. Whether Justice Barrett takes this case
or not, with or without quorum, she is under solemn
oath duty to move for judicial inquiry and report to
the authorities the Federal Circuit court’s and clerks’
violation of federal criminal laws 18 U.S.C. §§ 1512,
1513, 1503, and 18 USC §371 and breach of solemn
oaths.
FACTS, MEMORANDUM OF LAW, PROCESS
AND PROCEDURE
1. Adverse Domination of Process by Federal
Circuit Court and its Clerks, making 73-year
old disabled Petitioner a victim of their
violations of federal criminal laws 18 U.S.C.
§§371, 1512, 1513, 1503, and breach of solemn
oaths by oppression and disparity, denying
her Equal Protection of the Laws:
to the prejudice of good order, discipline and justice, of
a nature to bring discredit upon the judiciary and
United States, violating federal and state civil and

5

criminal laws and the Constitution. District Court
Judges acted as Attorney to Defendants, Ordered
them to not answer Petitioner’s Complaint, to
Default, dismissed the case without a hearing, and
ordered them to untimely move for attorney’s fees of
$148K for not answering the Complaint and no injury
after 2 years after appeal at the Supreme Court.
Petitioner is “the prevailing party.” not Defendants,
even by the District and Appellate Courts’
procedurallv foul process.
2. Courts Failed to Enter Default and Default
Judgment in Petitioner’s Favor, Upon
Request, when the Defendants Did Not File
an Answer to Petitioner’s Complaint, per
Order by District Court Judges Not to
Answer—Petitioner Won the Case by Default.
Defendants default. Clerks refuse to enter default and
default judgment. Judges dismiss the case without a
hearing. “Upon Default, all matters are settled res
judicata and stare decisis.” “Default comprises an
estoppel of all actions, administrative and judicial” by
courts, PTAB and Defendants against Petitioner.
3. Judges’ Retaliatory Ex-Actions Against
Petitioner, Maliciously, Willfully, Knowingly
And Recklessly Defamed Her As “Frivolous”
And “Malicious” Without An Iota Of
Evidence, for 73-Year Old, Disabled Inventor
Fighting For Her Property Rights And
Constitutional Rights, For Requesting The
Judges And Clerks To Do Their Ministerial
Duty To Abide by their Solemn Oaths and
Enforce The Mandated Prohibition - the Law
Of The Case And Law Of The Land And To
Consider Patent Prosecution History —

6

Material, Intrinsic Prima Facie Evidence
That Her Claim Terms Are Not Indefinite
And That Her Patent Claims Are Not Invalid,
As Per Stare Decisis Supreme Court
Precedents:
in Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki
Co., 535 U.S. 722 (2002); Trustees of Dartmouth
College v. Woodward, 17 U.S. 518 (1819); Grant v.
Raymond, 31 U.S. 218 (1832); Fletcher v. Peck, 10
U.S. 87 (1810); Arunachalam v. Lyft, 19-8029,
voiding all Orders in all of Petitioner’s Supreme
Court cases, for want of jurisdiction; Cooper v. Aaron,
358 U.S. 1 (1958); Ableman v. Booth, 62 U.S. 524
(1859); Sterling v. Constantin, 287 U.S. 397 (1932);
and per Federal Circuit precedents in Kumar v.
Ovonic Battery Co., Inc. And Energy Conversion
Devices, Inc., Fed. Cir. 02-1551, -1574, 03-1091 (2003),
351 F.3d 1364, 1368, 69. (2004); Aqua Products Inc. v.
Matal, 15-1177 (Fed. Cir.2017); Arthrex, Inc. v. Smith
& Nephew, Inc., No. 2018-2140, slip op.
(Fed.Cir.10/31/2019)
applies to:
“All agency
actions rendered
by
those
[unconstitutionally
appointed] APJs;” Virnetx Inc. v. Cisco Systems and
USPTO (intervenor) (Fed. Cir. 5/13/2020).
4. Expert Opinions of Stanford’s Dr. Markus
Covert and Dr. Jay Tenenbaum in ReExaminations of Petitioner’s Patents Prove
She Is Not “Frivolous” Or “Malicious.”
See Appendix App. 5a: Docketed version of Petitioner
Dr. Lakshmi Arunachalam’s Memorandum in Lieu of
Oral Argument (1.13.2021), Exhibits A and B.

7

5. The Only People Who Have Been “Frivolous”
And “Malicious” Are The Adjudicators, As
Chief Justice Marshall Declared In Trustees
Of Dartmouth College V. Woodward (1819):
Courts’/PTAB’s rescinding act has the effect of an ex
post facto law and forfeits Petitioner’s estate “for a
crime NOT committed by” her, “but bv the
their
Adjudicators”
Orders
which
by
“unconstitutionally impaired” the contract with the
inventor, which, “as in a conveyance of land, the court
found a contract that the grant should not be
revoked.” All court Orders in Petitioner’s cases violate
the U.S. Constitution, inconsistent with the “faithful
execution of the solemn promise made by the United
States” with the inventor and constitute treason. See
Appendix 5a: Exhibit C — Daniel Brune’s Amicus
Curiae Brief in Case 20-136. Chief Justice Marshall
declared that any acts and Orders by the Judiciary
that impair the obligation of the contract within the
meaning of the Constitution of the United States “are
consequently unconstitutional and void.” Chief
Justice Marshall declared that war was actually
levied under such circumstances in U.S. v. Burr, 25 F.
Cas. 55, 161 (CCD, Va. No. 14693).
6. This Entire Case revolves around the
Judiciary Avoiding Enforcing Dartmouth
College, Fletcher, et al At All Costs. Why? —
Because Enforcing It Exposes The Entire
Patent System, Operating As A Criminal
Enterprise. Defrauding The Public.
Courts dismissed Petitioner’s Cases without a hearing
for no valid reason with False Official Statements,

8

while Chief Justice Roberts admitted by his recusal on
5/18/20 in 19-8029 that the facts and the law are on
Petitioner’s side. Courts cannot prove Petitioner
“abused the process,” if there is even a process, much
less “repeatedly” so, as the courts collusively allege
arbitrarily and capriciously, without any evidence and
have concertedly manufactured a fact, in a pattern,
with the common treasonous objective of not enforcing
Dartmouth College, and Fletcher. Courts have been
demeaning and defaming Petitioner for no good
reason and suppressing her to silence her from
exposing their culpability and have exhibited bias in
a reckless manner. The Federal Circuit Court clerks
and judges committed overt acts of hate crime against
an elder, took away her ECF filing in adversely
dominated process disorder to prevent Dartmouth
College and Fletcher ever coming before the Supreme
Court as that would expose the collusive fraud of the
USPTO, the Federal Circuit and Congress in breach
of public trust in taking granted patents without just
compensation to the inventor, withheld documents
and failed to docket Petitioner’s filings, tampered with
the public record, granted her fee waiver in all of
Petitioner’s cases except in Federal Circuit case 20136, and teased and harassed her and made False
Official Statements that Petitioner’s credit cards did
not work, when she proved that they indeed worked.
7. Courts Cannot Determine That Petitioner’s
Action Was “Frivolous, Unreasonable, Or
Without Foundation."
Judges ’and Clerks’ EXACTIONS were clearly in
excess of their jurisdiction, to deprive Petitioner of
her federally protected rights
to be free from a
conspiracy "to prevent, by force, intimidation, or

9

threat" her First Amendment rights to Petition the
Government for Redress of Grievance; and from
deprivations "of equal protection of the laws, or of
equal privileges and immunities under the laws." The
courts have not proven bad faith or malice on
Petitioner’s part nor that any particular claim is
frivolous, nor can they.
District and Appellate Courts’ and PTAB’s procedural
irregularities and falsely accusing Petitioner as
“vexatious” for defending the Constitution and their
cruel and unusually punitive intentions are well
documented. The courts denying Petitioner a fair
hearing to cover up their own culpability and
lawlessness — bespeaks of the courts and PTAB
biased against Petitioner, and not doing their solemn
oath duty to enforce the Law of the Land. Judges’ and
clerks’ outrage at Petitioner reveals “a ‘deep-seated ...
antagonism that would make fair judgment
impossible.’ Liteky, 510 U.S. at 555.” Judges’ Orders
of a false collateral estoppel without considering
Patent Prosecution History and without applying
stare decisis Supreme Court precedents are not legally
sound and are not precedent. Cherrington v. Erie Ins.
Property and Cas. Co., 75 S.E. 2d. 508, 513 (W. Va,
2013).
8. Special Circumstances Warrant Mandamus.
Judges Did Not Find Actual Injury.
Judges did not allow Petitioner a fair hearing or fair
procedural or substantive due process. Courts made it
unreasonably burdensome, downright dangerous, and
expensive for Petitioner to have access to the Court on
the question of due process itself. Courts denied
Petitioner fair access to process. Petitioner has no
evidence that courts and PTAB have not violated

10

Petitioner’s rights. Defendants and the Government
are unjustly enriched by trillions of dollars. Petitioner
was injured by trillions of dollars in financial damages
and personal injury to her health. Petitioner is the
aggrieved party, entitled to damages, attorneys’ fees,
not the Defendants.
REASON WHY THE WRIT SHOULD ISSUE
The courts and USPTO have made a concerted effort
to prevent the government from functioning the way
it should function. They committed overt crimes in
violation of federal criminal laws and six independent
violations of the Constitution. They violated the free
speech provision. They violated the bill of attainder.
They violated due process, on and on and on. They
betrayed the oaths they swore to defend the United
States Constitution by impairing the obligation of
contracts in accord with the Constitution. Inventors
have been injured physically and financially for
standing for our Constitution and our country, but
they should never face such peril at the hands of the
USPTO, clerks and Judiciary to hurt our democracy,
and to dishonor our Constitution5.
5 Chief Justice Marshall declared a Government-issued “grant is
a contract,” and “The Law of this case is the law of all. ...is
applicable to contracts of all descriptions...there is nothing for
the court to act upon,” save enforce the Constitution - the
Mandated Prohibition, without impairing the obligation of
contracts in accord with the Constitution. In TC Heartland LLC
v. Kraft Foods Group Brands LLC, 581 U.S. 16-341 (1917), 137
S. Ct. 1514, the Court ruled against the Federal Circuit not
abiding by the Court’s precedential rulings in Fourco Glass Co.
v. Transmirra Products Corp., 353 U.S. 222—226 (1957) for a
century. The Court must take Judicial Notice of its own stare
decisis precedents in accord with the Contract Clause of the
Constitution. Courts have been in breach of their solemn oath

11

II.

Standard of Review

While, “[a] mandamus petitioner must demonstrate
that its right to the writ is ‘clear and indisputable,’”
Fokker Servs., 818 F.3d at 749-750, “numerous
decisions of the Supreme Court and this court made
clear that ... Mandamus serves as a check on
...‘usurpation of judicial power.’...’’.“The traditional
use of the writ in aid of appellate jurisdiction ... has
been to confine an inferior court to a lawful exercise of
its prescribed jurisdiction or to compel it to exercise
its authority when it is its duty to do so.” Roche v.
Evaporated Milk Ass'n, 319 U.S. 21, 26 (1943).
While every mandamus petition must meet the
familiar three-factor test, namely that (i) the
petitioner has no adequate alternative remedy for
obtaining the relief he desires; (ii) his right to relief is
clear and indisputable; and (iii) he persuades the
court that, in the exercise of its discretion, the writ is
appropriate under the circumstances, Fokker Servs.,
818 F.3d at 747, "[w]hen the writ of mandamus is
sought from an appellate court to confine a trial court
to a lawful exercise of its prescribed authority, the
court should issue the writ almost as a matter of
course." In Re Reyes, 814 F.2d 168, 170 (5th Cir.
1987). If there is “a threshold question concerning ...
duty to enforce the Law of the Land. Why? To acknowledge
Fletcher is to admit deceiving the pubhc for decades in a collusive
fraud between the Judiciary, USPTO, the Legislature and
Corporate Infringers. So the courts manufactured a false reason,
calling Petitioner names, that Petitioner is “malicious,”
“frivolous” and has “repeatedly abused the process,” for the
courts’ own misconduct. The courts damaged Petitioner’s pristine
reputation and impeccable credentials. Judges and clerks have
lost their immunity, in their overt criminal acts to deprive
Petitioner of her fair access to process and to the Court.

12

jurisdiction to review the district court’s interlocutory
order ... [this Court] first considers] whether the
district court legally erred.” Fokker Servs., 818 F.3d
at 740.
III.

The Inferior Courts Legally Erred.

Binding Supreme Court and Federal Circuit
precedents squarely foreclose the district and Circuit
courts’ determination by financially conflicted Judges
(U.S. District Court Judge Andrews, PTAB Judges
McNamara
and
Siu)
to
disparately deny
Petitioner/Inventor her protected rights to the
benefits of the Federal Circuit’s Arthrex and Virnetx
rulings that voided all PTAB rulings because the
PTAB Administrative Patent Judges were appointed
in violation of the Appointments Clause of the U.S.
Constitution, U.S. Const., art. II, §2, cl. 2; the Federal
Circuit’s Aqua Products’ ruling that reversed all court
and PTAB rulings that did not consider “the entirety
of the record” — Patent Prosecution History; the
Supreme Court’s Festo Corp. v Shoketsu Kinzoku
Kogyo Kabushiki Co., 535 U.S. 722 (2002) ruling that
restrains the lower courts from disparately failing to
consider Patent Prosecution History in Petitioner’s
cases; and the Supreme Court’s stare decisis
prohibition of the Constitution mandated by this
Court against repudiating Government-issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land — declared by Chief
Justice Marshall in Fletcher v. Peck, 10 U.S. 87 (1810),
Trustees of Dartmouth College v. Woodward, 17 U.S.
518 (1819); Ogden v. Saunders, 25 U.S. 213 (1827);
Grant v. Raymond, 31 U.S. 218 (1832); U.S. v.
American Bell Telephone Company, 167 U.S. 224
(1897); and the courts continue in their persecution of

13

the Petitioner/inventor in denying her substantive
and procedural due process, denying her rights to a
neutral judge, denying her property rights and
constitutional rights, and making it expensive,
hazardous and burdensome for her to have access to
justice and to the courts on the question of due process
itself all alike violate the Constitutional provision,
ALP VOL. 12. CONST. LAW, CH. VII, SEC. 1, §141
and Petitioner is entitled to Constitutional Redress.
TV.

This is the Rare Case Where Mandamus is
warranted.

The Government misconduct by the Judiciary, the
Agency
(U SPTO/PTAB)
and
Congress’
unconstitutional America Invents Act violating the
Appointments Clause of the U.S. Constitution, U.S.
Const., art. II, §2, cl. 2., the Contract Clause and
Separation of Powers Clause of the Constitution and
stare decisis prohibition of the Constitution mandated
by this Court against repudiating Government issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land and suppressing
material prima facie evidence — Patent Prosecution
History that Petitioner’s patent claims are neither
invalid nor claim terms indefinite, provide a morethan sufficient basis for granting this Mandamus. An
innocent Senior Citizen, single, disabled 73-year old
female inventor of color of significant inventions of the
Internet of Things (IoT) — Web Apps displayed on a
Web browser, that have enabled nation to function
remotely during COVID, has been the target of elder
abuse, fraud and obstruction of justice by financially
conflicted Judges, who know that the Federal Circuit
was created in 1982 to invalidate granted patents
contrary to the stare decisis prohibition of the

14

Constitution mandated by this Court against
repudiating Government issued contract grants of any
kind — the Law of the Case and the Supreme Law of
the Land, the Contract Clause and Separation of
Powers Clause of the Constitution. The egregious
Government misconduct, and the decades-long abuse
of elderly, disabled Petitioner, injuring her physical
health, subjecting her to emotional duress, and theft
of her intellectual property and patents by Corporate
Infringers
aided and abetted by the USPTO,
Congress, clerks and financially conflicted Judges,
cry out for ending this ordeal immediately and
permanently.
The inferior Court’s orders reveal their plan to
obstruct justice in Petitioner’s cases indefinitely,
rubbing salt in Petitioner’s open wound from the
Government’s misconduct and threatening her with
sanctions and sanctioning her
with cruel and
unusual punishment, falsely dubbing her “frivolous
and malicious” with all evidence pointing to the
contrary, particularly for Dr. Arunachalam defending
the Constitution and asking the Government,
Congress, Judiciary and USPTO/PTAB to enforce the
Constitution and the Fletcher Challenge.
Petitioner has no alternative avenue of relief, her
right to relief is “clear and indisputable” and, in these
extraordinary circumstances, issuance of the writ is
not just appropriate, it follows “as a matter of course."
In Re Reyes, 814 F.2d at 168. Petitioner’s cases require
the courts to enforce the Constitution and the stare
decisis prohibition of the Constitution mandated by
this Court against repudiating Government issued
contract grants of any kind — the Law of the Case and
the Supreme Law of the Land, as declared by Chief

15

Justice Marshall in Fletcher v. Peck, 10 U.S. 87 (1810),
Trustees of Dartmouth College v. Woodward, 17 U.S.
518 (1819); Ogden v. Saunders, 25 U.S. 213 (1827);
Grant v. Raymond, 31 U.S. 218 (1832); U.S. v.
American Bell Telephone Company, 167 U.S. 224
(1897); and the Contract Clause and Separation of
Powers Clause of the Constitution.
V.
Petitioner’s Right to Relief is “Clear and
Indisputable,” and She Has no Alternative
Avenue of Relief.
Petitioner has already suffered an unimaginable
ordeal at the hands of unscrupulous, lawless,
financially conflicted Judges (Andrews, McNamara,
Siu) who have failed to enforce the law of the Land,
and a seven-year abuse of elderly, disabled female
inventor Dr. Ms. Lakshmi Arunachalam, injuring her
physical health, subjecting her to emotional duress,
and theft of her intellectual property and patents by
Corporate Infringers
aided and abetted by the
USPTO, Congress, judges, clerks and financially
conflicted Judges. She has suffered from the
defamation and libel by the courts and PTAB Judge
McNamara and the Defendants and their attorneys
engaged in unlawful Solicitations to Solicitees, the
Judges, under color of privileged documents filed in
Court. Petitioner has risked her life — financial ruin,
and the mental anguish and physical injury caused by
clerks and financially conflicted Judges obstructing
justice and hindering access to the court, for which she
is entitled to Constitutional redress. All for no
legitimate reason.
The wrongful and wasteful failure to enforce Fletcher
and Dartmouth College must end. Since the inferior

16

courts refuse, Petitioner must ask this Court to order
the inferior courts to stop obstructing justice and to
comply with the controlling precedents of the
Supreme Court and of the Federal Circuit. The
Judiciary and USPTO/PTAB continuing in this
fashion does not serve the interests of the public or the
United States or inventors.
VI.

Issuance of the Writ is Appropriate.

Petitioner, through no fault of her own, has been
drawn into a nightmare of clerks obstructing justice
and oppressing her and Judges failing to enforce the
Law of the Land and this Court’s stare decisis
Mandated Prohibition from repudiating government
issued patent contract grants. She has been subjected
to deception, abuse, penury, obloquy, and humiliation.
Having risked her life in service to her country and
Constitution, she has found herself the target of elder
abuse and obstruction of justice designed to strip her
of her honor and savings, and to deprive her of her
patent properties. She has been dragged through the
mud and forced, through the artful withholding of
information material prima facie evidence of Patent
Prosecution History, crucial to the falsity of Judges’
False Official Statements that falsely allege that her
patent claims are indefinite and invalid. Having at
last, through the relentless determination of her
current counsel, namely, herself, as she is a selfrepresented litigant, brought the truth to light, she
now learns that the judges who are charged with
adjudicating her case impartially have decided to
“playd ... Attorney” to the Defendants. Equity
demands an end to this nightmare and restoration of
Petitioner’s virgin patent properties and peace of
mind.

I

17

The reputation of the judiciary is in jeopardy. The
inferior courts abandoned any pretense of being an
“objective umpire” — going so far as to sanction
Petitioner and taking away her ECF filing for asking
the Court to enforce the Constitution and to enforce
the stare decisis prohibition of the Constitution
mandated by this Court against repudiating
Government issued contract grants of any kind — the
Law of the Case and the Supreme Law of the Land, as
declared by Chief Justice Marshall in Fletcher v. Peck,
10 U.S. 87 (1810), Trustees of Dartmouth College v.
Woodward, 17 U.S. 518 (1819); Ogden v. Saunders, 25
U.S. 213 (1827); Grant v. Raymond, 31 U.S. 218
(1832); U.S. v. American Bell Telephone Company, 167
U.S. 224 (1897); and the Contract Clause, Separation
of Powers Clause and the Appointments Clause of the
U.S. Constitution, U.S. Const., art. II, §2, cl. 2.
Confidence in the rule of law, and the
willingness of federal judges to administer it
impartially, will continue to erode, if this Court fails
to put a swift end to this spectacle.
CONCLUSION
Wherefore, the Court must grant said mandamus
Justice Barrett must move for judicial inquiry against
judges and clerks for violations of federal criminal
laws 18 U.S.C. §§371, 1512,1513,1503, and breach of
solemn oaths.
Respectfully submitted,

February 3, 2021

Dr. Lakshmi Arunachalam, Pro Se Petitioner
222 Stanford Avenue, Menlo Park, CA 94025
(650) 690-0995; laks22002@vahoo.com

18

APPENDIX TABLE OF CONTENTS
App. la: Federal Circuit Order ECF56
(12/18/20)..................................................... App. la
App. 2a: Federal Circuit Order ECF60
(2/2/21).......................................................... App. 2a
App. 3a: Federal Circuit Order ECF60
(1/27/21)........................................................ App. 3a
App. 4a: Federal Circuit Order ECF55
(11/30/20)..................................................... App. 4a
App. 5a: Docketed version of Petitioner
Dr. Lakshmi Arunachalam’s Memorandum
in Lieu of Oral Argument (1.13.21)
App. 5a

19

App. la
Federal Circuit Order ECF56
(12/18/20)

12/18/2020 _56_ NOTICE OF SUBMISSION
WITHOUT ARGUMENT. Panel:
2102D. Case scheduled February
1, 2021. Argument is not required
and this case will be submitted to
the panel on the date indicated.
Service as of this date by the
Clerk of Court. [743844] [JAB]
[Entered: 12/18/2020 01:49 PM]

20

App. 2a
Federal Circuit Order ECF60
(2/2/21)

01/13/2021 60 This entry was made in error and
has been removed from the docket.
Document received from Doctor
Lakshmi Arunachalam. [752215][Edited 02/02/2021 by MJL - this
submission did not comply with
the court's order r551 and has been
removed from the docket]. [JCP]
[Entered: 01/27/2021 08:38 PM]
The Federal Circuit entered in the docket on 1/27/21
Petitioner’s Memorandum in Lieu of Oral Argument
timely received by the court on 1/13/21. The Court
failed to submit Petitioner’s Memorandum in Lieu of
Oral Argument to the Hearing Panel before the Panel
Hearing on 2/1/21, and on 2/2/21, removed Petitioner’s
Memorandum in Lieu of Oral Argument one day after
the Panel Hearing on 2/1/21, giving manufactured
reasons, making False Official Statements that the
submission did not comply with the Court’s Order
ECF55 requiring Petitioner to move for leave to file ,
whereas the Court waived this requirement of ECF55
by its Order of 12/18/20 authorizing Petitioner to file
the Memorandum, and falsely alleged that the Court
docketed it in error on 1/27/21.

21

App. 3a:
Federal Circuit Order ECF60
(1/27/21)

01/13/2021

60

Paper Document received from
Doctor Lakshmi Arunachalam.
(PENDING REVIEW) [752215]
[JCP] [Entered: 01/27/2021 08:38
PM]

02/01/2021

61

Submitted ON THE BRIEFS to
Panel: Lourie, Circuit Judge;
Wallach, Circuit Judge and Chen,
Circuit Judge. [753009] [JCP]
[Entered: 02/01/2021 11:45 AM]

The Federal Circuit entered in the docket on 1/27/21
Petitioner’s Memorandum in Lieu of Oral Argument
timely received by the court on 1/13/21. The Court
failed to submit Petitioner’s Memorandum in Lieu of
Oral Argument to the Hearing Panel before the Panel
Hearing on 2/1/21.

22

App. 4a:
Federal Circuit Order ECF55
(11/30/20)
11/30/2020 55 ORDER filed Except for merits
briefs in her direct appeals,
motions for extensions of time to
file such briefs, and motions for
leave to proceed in forma
pauperis, the Clerk of this court is
directed not to docket any further
papers by or on behalf of Dr.
Arunachalam unless her filing is
accompanied by a motion for leave
to file and the court grants such
motion. The motion must be
captioned "Motion Pursuant to
Court Order Seeking Leave to
File" and must certify that the
grounds on which she relies for
the relief she seeks have never
before been rejected on the merits
by this court. Failure to comply
strictly with the terms of this
injunction will be sufficient
grounds for denying leave to file,
(see order for details) (Per
Curiam). Service as of this date by
the Clerk of Court. [738797]
[LMS] [Entered: 11/30/2020 02:34
PM]

23

VERIFICATION
In accordance with 28 U.S.C. Section 1746,1 declare
under penalty of perjury that the foregoing is true
and correct based upon my personal knowledge.

Dr. Lakshmi Arunachalam, a woman
Self-Represented Petitioner
Executed on February 3, 2021
222 Stanford Ave,
Menlo Park, CA 94025
650 690 0995
laks22002@yahoo.com

